                                                OFFICE OF INSPECTOR GENERAL
                                                                       MEMORANDUM




DATE:         June 3, 2005

TO:           Chairman

FROM:         Inspector General

SUBJECT:      Report the Audit of Wireless Network Controls

The Office of Inspector General (OIG) has completed an Audit of Wireless Network Controls.
A copy of our Audit Report, entitled “Audit of Wireless Network Controls” (Audit Report No.
04-AUD-10-19) is attached. The objective of this audit was to determine the extent and
adequacy of security controls over wireless networks operated and maintained by and/or for the
Federal Communications Commission (FCC). The scope of this audit included only wireless
data networks and specifically excluded voice communications.

To accomplish the objectives of this audit, we contracted with the public accounting firm of
KPMG, LLP (KPMG). Under our supervision, the KPMG audit team interviewed staff,
reviewed documentation, and performed other tests deemed necessary. Finally, KPMG
evaluated the status of technical controls by executing automated tools and manual tests on the
devices comprising the FCC’s wireless data infrastructure. These tests included a vulnerability
assessment to test the security of the FCC’s wireless assets. KPMG also evaluated the wireless
data infrastructure at FCC facilities in Gettysburg, PA, Powder Springs, GA, and Duluth, GA.

During this audit we identified a number of positive security controls in the FCC’s wireless data
infrastructure, including:

   •   The Wireless Telecommunications Bureau (WTB) has implemented an intrusion
       detection system (IDS) to protect their wireless network infrastructure.

   •   The FCC’s Wireless Hot Spot Network (WHSN) is physically separated from the
       production network.

   •   Security mechanisms of unauthorized access points were enabled at two (2) Enforcement
       Bureau (EB) field offices.
